No. 19-875
In the

Supreme Court of the United States
__________________
OTO, L.L.C.,
v.
KEN KHO, ET AL.,
__________________

Petitioner,

Respondents.

On Petition for Writ of Certiorari to the
Supreme Court of California

__________________

BRIEF OF THE CIVIL JUSTICE ASSOCIATION
OF CALIFORNIA AS AMICUS CURIAE IN
SUPPORT OF PETITIONER
__________________
Fred J. Hiestand
Counsel of Record
3418 Third Avenue, Suite 1
Sacramento, CA 95817
(916) 448-5100
fred@fjh-law.com
Counsel for Amicus Curiae

February 14, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Does the California Supreme Court’s decision
holding an employment arbitration agreement
unconscionable because it substitutes a “more
procedurally protective” arbitral hearing for an
administrative agency hearing create conflicts with the
Federal Arbitration Act and relevant decisions of this
Court?

ii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
INTEREST OF AMICUS . . . . . . . . . . . . . . . . . . . . . . 1
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 6
REASONS TO GRANT THE WRIT . . . . . . . . . . . . . 7
I. THE DECISION TO BAR ENFORCEMENT OF
A PRE-DISPUTE ARBITRATION
AGREEMENT BECAUSE IT SUBSTITUTES A
MORE PROCEDURALLY PROTECTIVE
ARBITRAL HEARING FOR AN AGENCY
HEARING CONFLICTS WITH THE FAA AND
THIS COURT’S PRECEDENTS . . . . . . . . . . . . . 7
A. The Decision Rests on the Erroneous Ground
that an Arbitration Agreement is
Unconscionable if it does not Provide a Party
“Effective Vindication” of a State Statutory
Right. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
B. The Decision Fails to Give Due Regard to the
FAA’s Requirement that State Courts cannot
use “Unconscionability” to Discriminate
Against Arbitration Agreements . . . . . . . . . 13
C. The Decision Erroneously Elevates the FAA’s
Encouragement of Efficient and Speedy
Dispute Resolution Over the Enforcement of
Private Agreements to Arbitrate . . . . . . . . . 15
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

iii
TABLE OF AUTHORITIES
CASES
AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2011). . . . . . . . . . . . . . . 9, 11, 13, 14
American Express Co. v. Italian Colors Restaurant,
570 U.S. 228 (2013). . . . . . . . . . . . . . . . . . . . 12, 13
Armendariz v. Foundation Health Psychcare
Services, Inc., 6 P.3d 669 (Cal. 2000) . . . . . . . . . . 3
Buckeye Check Cashing, Inc. v. Cardegna,
546 U.S. 440 (2006). . . . . . . . . . . . . . . . . . . . . . . 14
Dean Witter Reynolds, Inc. v. Byrd,
470 U.S. 213 (1985). . . . . . . . . . . . . . . . . . . . 15, 16
Epic Systems Corp. v. Lewis,
138 S. Ct. 1612 (2018). . . . . . . . . . . . . . . . . . . . . 13
Kindred Nursing Centers L. P. v. Clark,
137 S. Ct. 1421 (2017). . . . . . . . . . . . . . . . . . 13, 14
Madden v. Kaiser Foundation Hospitals,
17 Cal.3d 699 (1976) . . . . . . . . . . . . . . . . . . . . . . . 8
Moses H. Cone Memorial Hospital v. Mercury
Constr. Corp., 460 U.S. 1 (1983). . . . . . . . . . 10, 11
Perry v. Thomas,
482 U.S. 483 (1987). . . . . . . . . . . . . . . . . . . . . . . 10
Preston v. Ferrer,
552 U.S. 346 (2008). . . . . . . . . . . . . . . . . . . . . 9, 10
Rent-A-Center, West, Inc. v. Jackson,
561 U.S. 63 (2010). . . . . . . . . . . . . . . . . . . . . . . . 11

iv
Shapiro v. U.S.,
335 U.S. 1 (1948). . . . . . . . . . . . . . . . . . . . . . . . . 15
Southland Corp. v. Keating,
465 U.S. 1 (1984). . . . . . . . . . . . . . . . . . . . . . . . . 10
Volt Information Sciences, Inc. v. Board of Trustees
of Leland Stanford Junior Univ.,
489 U.S. 468 (1989). . . . . . . . . . . . . . . . . . . . 15, 16
STATUTES
Cal. Lab. C. § 98 et. seq . . . . . . . . . . . . . . . . . . . . . . 11
Cal. Lab. C. § 229 . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
OTHER AUTHORITIES
Alexander J.S. Colvin, Economic Policy Institute
(Sept. 27, 2017), available at https://www.epi.org
/publication/the-growing-use-of-mandatory-arb
itration/ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Buddy DeSylva, Al Jolson & Joseph Meyer,
California Here We Come (1924) . . . . . . . . . . . . . 7
Richard Frankel, What We Lose in Sales, We Make
up in Volume: The Faulty Logic of the Financial
Services Industry’s Response to the Consumer
Financial Protection Bureau’s Proposed Rule
Prohibiting Class Action Bans in Arbitration
Clauses, 48 ST. MARY’S L.J. 283 (2016) . . . . . . . . 8
Paul Thomas, Conscionable Judging: A Case Study
of California Courts’ Grapple with Challenges to
Mandatory Arbitration Agreements, 62
HASTINGS L.J. 1065 (2011) . . . . . . . . . . . . . . . . . . 9

1
INTEREST OF AMICUS1
The Civil Justice Association of California (“CJAC”)
is a nonprofit organization whose members are
businesses, professional associations and financial
institutions. CJAC’s principal purpose is to educate the
public and its governing bodies about how to make laws
determining who gets paid, how much, and by whom
when the conduct of some occasions harm to others –
more fair, certain, and economical. Toward this end,
CJAC regularly appears as amicus curiae in numerous
cases of interest to its members, including those that
concern the scope and application of the Federal
Arbitration Act (“FAA”).
CJAC’s members collectively employ thousands of
people in California and hundreds of thousands
nationally to provide various products and services.
Most of CJAC’s members have elected, as have many
employers throughout the country,2 to resolve disputes
with their employees over employment matters,
including wage disputes, through binding arbitration.

1

Counsel of record for the parties received timely notice of the
intent to file this brief and consented to its filing. No counsel for
any party in this case authored this brief in whole or in part. No
person or entity aside from amicus, its members, or their
respective counsel made a monetary contribution to the
preparation or submission of this brief.
2

According to one study, approximately 55 percent of the
workforce, or 60 million employees, are covered by employment
arbitration agreements. Alexander J.S. Colvin, Economic Policy
Institute ( Sept. 27, 2017), available at https://www.epi.org/publicat
ion/the-growing-use-of-mandatory-arbitration/.

2
CJAC applauds this Court’s consistent line of
opinions upholding the FAA’s broad preemptive sweep
requiring that agreements to decide disputes by
arbitration be placed on an “equal footing” with other
contracts and enforced accordingly. The opinion at
issue here, however, thwarts contractual arbitration by
uniquely applying the state’s unconscionability doctrine
to void agreements that substitute an arbitral hearing
with more procedural protections for the parties than
an otherwise available and more informal
administrative agency hearing. This constitutes a
major roadblock to arbitration at odds with the FAA
and sound precedents of this Court.
INTRODUCTION
The California Supreme Court decided, contrary to
this Court’s applicable precedents limning the FAA,
that the arbitration agreement is unconscionable and
unenforceable because it contained procedural rules
and procedures akin to those in civil litigation, too
much protection inconsistent with a simpler, more
efficient administrative hearing before a state agency.
If left undisturbed, this opinion will place parties to
existing employment arbitration agreements and those
contemplating entering into such agreements between
the “rock and the whirlpool”—confused and confounded
over how much or how little procedural protections
comparable to those available in civil litigation must be
included or omitted from an arbitration agreement for
it to pass constitutional muster under the FAA’s broad
preemptive sweep. Courts and counsel will also be
flummoxed by the likely litigation influx the decision
spawns as to “how many” and “what kinds” of

3
procedural protections (singly or in what combination)
it will take for an employment arbitration agreement
to be valid and enforceable.
The court found protections provided by the
agreement fatal to its validity because they “created
expense and delay” greater than what the parties
would encounter if they were to avail themselves of the
informal administrative agency hearing provided by a
state statute. Appendix 6a (“App.”). Those “rules and
procedures” the court deemed objectionable provide the
parties “full discovery” in preparation for a hearing
before “a retired superior court judge” that conforms to
“all the rules of evidence.” Id. at 4a.
Though the allocation of arbitration expenses is “not
addressed explicitly,” the agreement specifies that
“controlling case law” applies and prevails “over Code
of Civil Procedure section 1284.2 if there is a conflict.”
Id. at 5a. Thus, while section 1284.2 provides that
parties to arbitration shall bear their own costs, the
“controlling case law” of Armendariz v. Foundation
Health Psychcare Services, Inc., 6 P.3d 669 (Cal. 2000)
requires the employer to pay all costs unique to
arbitration. The appellate court interpreted this
provision in the agreement as requiring the employer
to “pay both the costs of arbitration and a successful
claimant’s reasonable attorney fees.” App. 7a.
This decision disregards the clear terms of the
agreement by foisting upon the parties an
administrative agency hearing they expressly waived
in favor of the arbitral hearing. Though the
administrative process is “optional” for both claimants
and the agency [i.e., the state Labor Commissioner], it

4
cannot be dispensed with unless the employee gains “in
return any of the efficiencies or cost savings often
associated with arbitration.” App. 27a. The decision
reaches this result by preferring the administrative
hearing – called a “Berman hearing” after the legislator
who authored the statute providing for it – over the
arbitral hearing it bizarrely admits “anticipates a
proceeding . . . no more complex than will often be
required to resolve a wage claim under the Berman
procedures.” App. 7a.
Judging by the record of what occurred, however, it
is highly doubtful the Berman hearing route the court
prefers, and was taken here over the objection of the
employer, is speedier and less costly than that
prescribed by the arbitration agreement. The Berman
hearing permits either party to appeal from it to the
superior court, which reviews the claim de novo, and
from there to further judicial appeals. Id. at 9a. The
arbitration hearing, in contrast, is binding and final.
Here the respondent got his Berman hearing nine
months after he filed his complaint with the
administrative agency. Respondent then appealed the
agency decision to the superior court; and after that
there was an appeal to the intermediate appellate
court, where respondent prevailed, and next the
petition to the state supreme court. Altogether this
process took four years at an expense to the parties the
record does not reveal, but no one can deny was
substantial and likely greater than the time and cost of
the arbitral hearing.
That the court’s decision ultimately comes down to
its preference for the administrative hearing over the

5
arbitral one cannot be gainsaid. Though the court
found the agreement procedurally unconscionable given
its adhesive nature (the size of its print and other
factors), the “tipping point” persuading the court it was
unconscionable was the substitution of the arbitral
proceeding for the Berman hearing. This, the opinion tells
us, satisfies the second component for finding overall
unconscionability, “substantive unconscionability,”
through the employee’s surrender of “Berman procedures
. . . in return [for] access to a formal and highly structured
arbitration process that closely resemble[s] civil litigation
. . ..” App. 33a.
Finally, the decision admits that the arbitration
agreement with its “process closely resembling civil
litigation, can be as advantageous for the employee as
for the employer.” As an example, the opinion cites to
“wrongful discharge claims” where there “is no
Berman-like administrative process.” Id. This equal
advantage cannot apply here, however, as the court
exclaims it has “taken a different approach in
evaluating the compelled arbitration of wage claims, as
compared to the arbitration of other types of disputes.”
Id.; italics added.
The dissent by Justice Chin pointed out that the
majority opinion used the “cloak of unconscionability”
to cover its arbitration-specific rule for agreements
covering wage disputes. Id. at 85a. He explained this
violated the FAA’s “equal treatment” principle. He also
reasoned that the result of the majority opinion was to
erect a “preliminary litigation hurdle” that frustrated
the “purposes and objective” of the FAA, especially the

6
“prospect of speedy resolution” of disputes that
arbitration is “meant to secure.” App. 87a.
SUMMARY OF ARGUMENT
The California Supreme Court’s decision lacks due
regard for the FAA and numerous opinions of this
Court discussing that Act’s scope and application. As
Justice Chin’s dissent states, the majority’s insistence
that the arbitration agreement is unconscionable
because it adopts more procedural protections for
arbitration than those available from a state agency
procedure it displaces, frustrates “the FAA’s purpose to
ensure that private arbitration agreements are
enforced according to their terms.” App. 89a.
The majority opinion adopts important but
erroneous rules of law at odds with this Court’s
analyses of what the FAA requires and prohibits. In
addition to petitioner’s analysis, amicus presents
complementary points for consideration. To begin with,
once parties agree to arbitrate all disputes arising
under a contract, state law lodging primary jurisdiction
in another forum, judicial or administrative, are
superseded by the FAA.
Nor may the opinion bolster its “unconscionability”
determination by reference to the employee’s interest
in vindicating his rights under the administrative
procedure rather than the agreed upon arbitral one.
Those “rights” are based exclusively on a state statute,
and this Court’s “effective vindication” rule comes into
play only when a federal, not a state, statute is
implicated with the FAA.

7
Neither does the opinion comport with the FAA’s
“equal treatment” principle, which requires courts to
place arbitration agreements on an “equal footing” with
other contracts. In fact, the decision plainly does not
treat contracts in general the same as it does this
wage-claim arbitration agreement. This difference in
the court’s treatment between contracts in general and
arbitration agreements stands as a prohibited and
preempted obstacle to the accomplishment of the FAA’s
objectives.
Finally, the decision frustrates the “principal
purpose” of the FAA to ensure that private arbitration
agreements are enforced according to their terms, by
subordinating that purpose to the secondary objective
of a speedy and economical resolution of the dispute.
For these reasons and others explained in the petition,
the Court’s review and corrective guidance about the
decision is sorely needed.
REASONS TO GRANT THE WRIT
I. THE DECISION TO BAR ENFORCEMENT OF
A
PRE-DISPUTE
ARBITRATION
AGREEMENT BECAUSE IT SUBSTITUTES A
MORE PROCEDURALLY PROTECTIVE
ARBITRAL HEARING FOR AN AGENCY
HEARING CONFLICTS WITH THE FAA AND
THIS COURT’S PRECEDENTS.
“Here we come, right back where we started from.”3
Where we “started from” is this Court’s consistent line

3

Buddy DeSylva, Al Jolson & Joseph Meyer, California Here We
Come (1924).

8
of opinions for the past 35 years overruling California’s
hostile decisions and enactments invalidating
arbitration agreements.
Things did not start out this way. In fact, California
jurisprudence bristles with opinions praising
contractual binding arbitration as a viable alternative
to more expensive and protracted civil litigation. E.g.,
Madden v. Kaiser Foundation Hospitals (1976) 17
Cal.3d 699, 706-707 (“arbitration has become an
accepted and favored method of resolving disputes,
praised by the courts as an expeditions and economical
method of relieving overburdened civil calendars . . ..”).
Even the decision in this case pays lip-service to the
value of contractual arbitration (App. 13a), though
honoring it more in the breach than the observance.
But once arbitration agreements “caught on” and
came to be widely used, opposition to them arose. Most
of that opposition came from plaintiff attorneys and
emphasized that arbitration lacked rights comparable
to those available in judicial or administrative fora.
“[C]ritic[s] of the widespread use of mandatory
arbitration . . . complain that arbitration offers fewer
procedural protections than litigation and extremely
limited appellate review.”4 California succumbed to this
criticism of arbitration and leaped to the forefront of
states hostile toward it; the one state “more likely to
hold contracts to arbitrate unconscionable than other
4

Richard Frankel, What We Lose in Sales, We Make up in Volume:
The Faulty Logic of the Financial Services Industry’s Response to
the Consumer Financial Protection Bureau’s Proposed Rule
Prohibiting Class Action Bans in Arbitration Clauses, 48 ST.
MARY’S L.J. 283, 311-312 (2016).

9
contracts.” AT&T Mobility LLC v. Concepcion, 563 U.S.
333, 342 (2011) (“Concepcion”).5
A case resolving a conflict between California law
and the FAA that is analogous to the issue presented
here is Preston v. Ferrer, 552 U.S. 346 (2008). There, a
state law rule requiring exhaustion of administrative
remedies before arbitration could occur was held to
unconstitutionally conflict with the FAA’s preemptive
sweep to “achieve streamlined proceedings and
expeditious results.” Id. at 357. This objective, Preston
observed, would be “frustrated” by requiring a dispute
to be first heard by an administrative agency. “[W]hen
parties agree to arbitrate all questions arising under a
contract, state laws lodging primary jurisdiction in
another forum, whether judicial or administrative, are
superseded by the FAA.” Id. at 349-350; italics added.
What Preston held a statute could not require of an
arbitration agreement, the decision here requires the
opposite of for all agreements that cover employment
wage-claims. Courts and counsel need and deserve
clarification from the Court as to whether, despite the
authority of Preston and its cognates, the opinion
permits a state to strike down agreements to arbitrate
disputes if the parties substitute the arbitral hearing
for one available before an administrative agency.

5

“Courts applying California law are most likely discriminating
against arbitration agreements in a manner that is preempted by
the interpretation of the FAA advanced by the Supreme Court.”
Paul Thomas, Conscionable Judging: A Case Study of California
Courts’ Grapple with Challenges to Mandatory Arbitration
Agreements, 62 HASTINGS L.J. 1065, 1084 (2011).

10
Similarly, a state statute, Cal. Lab. C. § 229,
authorizing lawsuits for unpaid wages “without regard
to the existence of any private agreement to arbitrate,”
was held preempted because it conflicted with the FAA.
Perry v. Thomas, 482 U.S. 483, 490 (1987).
Holding as Perry and Preston did that a state cannot
require an arbitration agreement to take a back seat to
an administrative agency hearing or a specific state
statutory remedy for unpaid wages, is tantamount to
permitting parties to waive state administrative or
judicial remedies in favor of arbitration. Indeed,
waiving one’s right to either a judicial or
administrative proceeding is not only sanctioned by the
FAA, but banning or preventing such a waiver is
contrary to it. Southland Corp. v. Keating, 465 U.S. 1
(1984), for instance, decided this when it considered if
California’s franchise investment statute voiding any
contract to arbitrate claims in which a party waived
any provision of that statute comported with the FAA.
The court held it did not: “The California Supreme
Court interpreted this statute to require judicial
consideration of claims brought under [it] . . . and
accordingly refused to enforce the parties’ contract to
arbitrate such claims. So interpreted the California . . .
law directly conflicts with § 2 of the [FAA] and violates
the Supremacy Clause.” Id. at 10. “In enacting § 2 . . .,
Congress declared a national policy favoring
arbitration and withdrew the power of the states to
require a judicial [or administrative] forum . . ..” Id.;
italics added.
Section 2 reflects a “liberal federal policy favoring
arbitration,” Moses H. Cone Memorial Hospital v.

11
Mercury Constr. Corp., 460 U.S. 1, 24 (1983) and the
“fundamental principle that arbitration is a matter of
contract.” Rent-A-Center, West, Inc. v. Jackson, 561
U.S. 63, 67 (2010).
Another opinion that poses serious constitutional
concerns about this decision is Concepcion, supra, 563
U.S. at 333, which holds that the FAA preempts a
California rule that invalidated most class action
waivers in adhesion contracts, including arbitration
agreements, as unconscionable. Of particular
significance to this case is Concepcion’s statement that
“[w]hen state law prohibits outright the arbitration of
a particular type of claim, the analysis is
straightforward: The conflicting rule is displaced by the
FAA.” Id. at 341. The opinion here did what Concepcion
prohibits; it declared the agreement unconscionable
because it provided more procedural safeguards for the
parties in arbitration than the administrative agency
hearing displaced by the agreement.
A. The Decision Rests on the Erroneous
Ground that an Arbitration Agreement is
Unconscionable if it does not Provide a
Party “Effective Vindication” of a State
Statutory Right.
The decision declares the arbitration agreement
unconscionable because it constitutes a “barrier to the
vindication of [respondent’s] statutory rights.” App.
27a. Those statutory rights are set forth in state law,
Cal. Labor Code § 98 et. seq., a “Berman hearing”
“designed to provide a speedy, informal, and affordable
method of resolving wage claims.” App. 8a. The right
consists of a wage claimant filing a complaint with the

12
Labor Commissioner, receiving an answer from the
employer, dispensing with all discovery and technical
rules of evidence, and receiving a decision within 15
days after the informal hearing. Either party may
appeal the decision to the superior court, which then
reviews the claim de novo; but if the employer appeals,
a bond in the amount of the award must be posted. Id.
Assume arguendo that procedural rights afforded by
the arbitration agreement akin to those in civil
litigation are, as the decision here states, a barrier to
respondent’s more informal rights under the “Berman
hearing.” No matter; it is of no legal consequence and
cannot be used to bolster a state court’s
unconscionability finding. American Express Co. v.
Italian Colors Restaurant, 570 U.S. 228 (2013) (“Amex”)
teaches that a class action waiver is enforceable even
though it violates an “unconscionability” rule based on
a “vindication rationale” originating, as here, in state as
opposed to federal law. Id. at 235-239; italics added.
As Justice Kagan’s dissent in Amex clarifies, the
effective vindication doctrine is confined to federal, not
state law, claims. An arbitration agreement “may not
thwart federal law, irrespective of exactly how it does
so,” and the effective vindication principle must be
reconciled with the FAA and “all the rest of federal
law.” 570 U.S. at 240. “Our effective-vindication rule
comes into play only when the FAA is alleged to conflict
with another federal law . . ..” Id. at 252; italics added.
“We have no earthly interest (quite the contrary) in
vindicating [a state] law” that is inconsistent with the
FAA, so the state law must “automatically bow” to
federal law; any effective-vindication exception that

13
might possibly exist would “come into play only when
the FAA is alleged to conflict with another federal law.”
Ibid.
B. The Decision Fails to Give Due Regard to
the FAA’s Requirement that State Courts
cannot use “Unconscionability” to
Discriminate Against Arbitration
Agreements.
To remedy the problem of state judicial hostility to
contractual arbitration, Congress built an
“equal-treatment principle” into the FAA, requiring
courts to “place arbitration agreements on an equal
footing with other contracts.” Kindred Nursing Centers
L. P. v. Clark, 137 S. Ct. 1421 (2017). Any state rule
treating arbitration agreements worse than other
contracts “stand[s] as an obstacle” to achieving the
Act’s purposes—and is preempted. Concepcion, supra,
563 U.S. at 343. That means the FAA displaces any
state rule discriminating on its face against arbitration.
See id. at 341.
And the FAA likewise preempts any more subtle
law “disfavoring contracts that (oh so coincidentally)
have the defining features of arbitration agreements.”
Kindred Nursing, 137 S. Ct. at 1427. Those “defining
features” or “fundamental attributes” include “limiting
. . . issues subject to arbitration,” agreeing to “arbitrate
according to specific rules and to limit with whom a
party will arbitrate its disputes.” Concepcion, supra,
563 U.S. at 343. What matters is whether the state law
in question “target[s]” arbitration agreements,
blatantly or covertly, for substandard treatment. Epic
Systems Corp. v. Lewis, 138 S. Ct. 1612, 1622 (2018).

14
Here, the California Supreme Court fashioned a
new rule of unconscionability focused solely on
arbitration agreements governing employee wage
claims. That rule deems these agreements
unconscionable if they provide for procedures not as
“streamlined” as the administrative proceeding the
agreements displace for the arbitral one. It does not
place arbitration contracts “on equal footing with all
other contracts,” Buckeye Check Cashing, Inc. v.
Cardegna, 546 U.S. 440, 443 (2006), because California
courts would not interpret contracts other than
arbitration contracts the same way. Indeed, the
language the court uses to frame the issue it decides
focuses only on arbitration, and wage-claim arbitration
at that.
The “equal treatment” principle extends beyond
overt discrimination, “displac[ing] any [state] rule [of
unconscionability] that covertly accomplishes the same
objective.” Kindred Nursing, supra, 137 S. Ct. at 1426.
Although the FAA’s “saving clause preserves generally
applicable contract defenses,” it does not “preserve
state-law rules that stand as an obstacle to the
accomplishment of the FAA’s objectives.” Concepcion,
supra, 563 U.S. at 343. Nor does it permit state courts,
in addressing the concerns that attend contracts of
adhesion, “to take steps” under the rubric of
unconscionability that “conflict with the FAA or
frustrate its purpose to ensure that private arbitration
agreements are enforced according to their terms.” Id.
at 347, fn. 6; App. 88a.

15
C. The Decision Erroneously Elevates the
FAA’s Encouragement of Efficient and
Speedy Dispute Resolution Over the
Enforcement of Private Agreements to
Arbitrate.
The decision reverses the primary purpose of the
FAA (to uphold the terms of private agreements to
arbitrate) and elevates in its place a secondary purpose
– the speedy, efficient and economical resolution of the
dispute. This switching of the order of importance of
two purposes the FAA seeks to further that can be
consistent or occasionally conflicting is significant.
When a statute is susceptible of either of two opposed
interpretations, courts must read “it in the manner
which effectuates rather than frustrates the major
purpose of the legislative draftsmen.” Shapiro v. U.S.,
335 U.S. 1, 31 (1948); italics added.
And there is no doubt about the “major” or
“principal” purpose of the FAA. “The ‘principal purpose’
of the FAA is to ensur[e] that private arbitration
agreements are enforced according to their terms.” Volt
Information Sciences, Inc. v. Board of Trustees of
Leland Stanford Junior Univ., 489 U.S. 468, 478 (1989)
(“Volt”).
Dean Witter Reynolds, Inc. v. Byrd, 470 U.S. 213,
219 (1985) illustrates that when the terms of an
arbitration agreement result in a procedure that is not
“streamlined and inexpensive,” the agreement should
still be enforced. Acknowledging that a goal of
contractual arbitration is to expedite the resolution of
disputes, Dean Witter clarified what courts should do
when that secondary goal of “efficiency and economy”

16
is not ideally or fully achieved by an arbitration
agreement: “[W]e reject the suggestion that the
overriding goal of the Arbitration Act was to promote
the expeditious resolution of claims”; id. at 219, 217.
“[T]he intent of Congress requires us to apply the terms
of the Act without regard to whether the result would be
“possibly inefficient”; cf. id. at 220; italics added.
Since “[t]he thrust of the federal law is that
arbitration is strictly a matter of contract,” the parties
to an arbitration agreement should be “at liberty to
choose the terms under which they will arbitrate.” Volt,
supra, 489 U.S. at 473.
CONCLUSION
For all the aforementioned reasons, amicus urges
the Court grant the petition for a writ of certiorari.
Respectfully submitted,
Fred J. Hiestand
Counsel of Record
3418 Third Avenue
Suite 1
Sacramento, CA 95817
(916) 448-5100
fred@fjh-law.com
Counsel for Amicus Curiae

